No.
IN THE

~upreme ~ourt of tbe Wniteb ~tate~
QUINTIN ANTONIO BELL,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 3rd day of July, 2019, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondent:
Noel J . Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

